WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

David Tribble et.al.

19-1340
v.

First Security Bank, et. al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
ll There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Jason Tribble and Jennifer Tribble

EJ I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar •f this Court. Should a response be requested, the response
will be filed by a
r.
Sign
Date(Type or print) Name

Mark F. Cooper
El Mr.

Firm

❑ Mrs.

El Miss

Cooper & Bayless P.A.

Address

222 West 6th Street

City & State
Phone

El Ms.

Mountain Home, Arkansas

870 425-6400

Email

Zip

72653

cooplaw@suddenlinkmail.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED

CC: Larry Joe Steel

RECEIVED
JUL - 8 2020
THE CLERK
SUPREME COURT

